                                                                               Report In Brief
                                                                                      EVALUATION OF FTC’s PROGRAM AND PRACTICE
                                                                                                                                                        JANUARY 2012




                                                                                                                                              December 2011


                                                                                                                                    INFORMATION
                                                     What We Found
                                                                                                                                       SECURITY
Why We Did This Study
                                                                                                                                            Fiscal Year 2011
The    Federal      Information           Security
                                                     The evaluation showed that the FTC has
                                                                                                                                                             AR 12-002
Management        Act    of    2002       (FISMA)    established an information security program
requires federal agencies, including the             that   is   in    substantial      compliance        with
Federal Trade Commission (FTC), to
                                                     applicable security and privacy requirements.               “clouds,” an approach that is intended to
develop, document, and implement an                                                                              reduce costs while increasing the capability to
agency-wide        information            security   In FY 2010, the FTC security efforts were                   scale services to fluctuating requirements
program.    FISMA also             requires each     hampered by deficient performance resulting
Inspector General (IG) to conduct an                 from the conversion of its infrastructure                   The FTC increased the coordination of its
annual independent evaluation of its                 support to a performance-based contract. In                 information assurance and privacy programs                     	
agency’s information security program                FY 2011, the FTC Office of the Chief                        through its Privacy Steering Committee (PSC)
and practices.                                       Information Officer (OCIO) executed a special               in FY 2011. The increased coordination
                                                     effort to mitigate the infrastructure concerns.             recognizes that information assurance and
The Office of Inspector General (OIG)                This effort required the OCIO staff to perform              privacy requirements must be fully integrated
contracted with Allied Technology Group,             much of the security-related infrastructure                 to successfully protect FTC information assets.
Inc. (Allied Technology) to perform the FY           work that had been included in the support
2011 IG FISMA evaluation of the FTC                  contract and at the same time continue to                   The status of the FTC information assurance
information      assurance          and    privacy   advance     the    FTC    information      assurance        and privacy programs were summarized in the
programs.                                            program.    The      OCIO       effort   was    largely     DHS     FISMA       reporting     metrics       submitted
                                                     successful in mitigating immediate security                 through    Cyberscope.           As    stated     in     the
The   objective     was       to     provide    an
                                                     vulnerabilities and establishing the foundation             Cyberscope metric report, the IG independent
evaluation of the effectiveness of the FTC
                                                     for a successful, cost effective information                evaluation of the FTC information assurance
information      assurance          and    privacy
                                                     assurance program.                                          and    privacy       programs         resulted      in    a
programs and compliance with OMB and
                                                                                                                 determination      that    the    programs        provide
National    Institute   of    Standards        and
                                                     The FTC Information Security Program is                     reasonable assurance that FTC information
Technology (NIST) guidance. This is a
                                                     documented in a number of policies and                      assets are adequately protected, but there are
public version of a sensitive report that we
                                                     procedures that define a program structure                  opportunities      for    improvement.        The      FTC
issued in December 2011.
                                                     compliant with FISMA requirements. The                      information assurance and privacy programs
                                                     OCIO has an ongoing effort to ensure that                   continue to evolve: Controls are being added
                                                     FTC policies and procedures remain current                  and enhanced to address threat, vulnerability,
What We Recommend
                                                     with   governmentwide           guidance       and     is   and requirements changes; Planning practices
                                                     developing a multi-volume document (The                     are being enhanced to incorporate security
To improve FTC security and privacy
programs and bring them current with
                                                     Federal     Trade      Commission         Information       and privacy requirements at all levels of
OMB        and    NIST        guidance,        we    Security Program Handbook) that consolidates                information system planning, from enterprise
recommended improvements in the areas                FTC    security     practices.     The    modernized        to    individual     system;          and    Continuous
of risk management, capital planning, and            environment includes increased acquisition of               monitoring practices are being instituted to
information       security           continuous      application services under a performance-                   provide FTC management with the current
monitoring program.                                  based contracting approach. The FTC is also                 status and “health” of the FTC information
                                                     exploring opportunities to securely move FTC                assurance and privacy programs.
                                                     business     applications         into   commercial
